APPENDIX TABLE OF CONTENTS
Published Opinion of the Fifth Circuit Court of Appeals
(December 15, 2020)................................................................

App.la

Order of the United States District Court, Southern District of Mississippi,
App.lOa
Northern Division (June 18, 2019)
Final Judgment of the United States District Court, Southern District of
Mississippi, Northern Division (June 18, 2019)............................................ App.l6a
Order of the Fifth Circuit Court of Appeals Denying a Petition for Rehearing
App.l7a
(January 22, 2021)

Case: 19-60596

Document: 00515674418

Page: 1

Date Filed: 12/15/2020

Stniteb-^tatesJ-Couctof-appeab
for the Iftfth Circuit

United States Court of Appeals
Fifth Circuit

FILED

December 15, 2020

No. 19-60596

Lyle W. Cayce
Clerk

Leonard Thurman,
Plaintiff—Appellant,
versus
Medical Transportation Management, Incorporated,
Defendant—Appellee.

Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:18-CV-282

Before Clement, Ho, and Duncan, Circuit Judges.
James C. Ho, Circuit Judge:
Leonard Thurman is a Medicaid recipient.

He asked Medical

Transportation Management, Inc. (“MTM”) to drive him to a doctor’s
appointment. But according to the company, Thurman failed to provide
MTM with the information needed to confirm his request. In response,
Thurman sued under 42 U.S.C. § 1983, among other claims. He alleged that
MTM’s failure to pick him up violated his purported right to non-emergency
medical transportation under various federal regulatory and statutory
Medicaid provisions. The district court dismissed Thurman’s claims, and
rightly so.

App.la

Case: 19-60596

Document: 00515674418

Page: 2

Date Filed: 12/15/2020

No. 19-60596

Whether a § 1983 claim may be brought to enforce an administrative
regulation is an open question in this circuit. But the overwhelming majority
of circuits that have decided the issue have held that such claims may not be
brought—consistent with the principle that federal rights are created by
Congress, not agencies of the Executive Branch, as the Supreme Court has
affirmed on various occasions. See, e.g., Alexander v. Sandoval, 532 U.S. 275,
291 (2001); Gonzaga Univ. v. Doe, 536 U.S. 273, 283 (2002). We agree and
therefore join those circuits on this question. We also hold that none of the
statutory provisions invoked by Thurman clearly and unambiguously create
a right to non-emergency medical transportation, as established precedents
require for a claim under § 1983. Accordingly, we affirm.
I.
MTM provides non-emergency medical transportation to Medicaid
recipients. Thurman alleges that he requested a pickup for a doctor’s
appointment to treat complications stemming from a tooth extraction
performed two weeks earlier. But MTM did not pick him up. So Thurman
filed an internal grievance with MTM. In response, MTM explained that the
trip was never confirmed because Thurman did “not provide all trip
information” during the scheduling call, placed the MTM representative on
hold, and did not return.to the line.
Initially proceeding pro se, Thurman sued MTM.1 He brought,
among others, a claim under 42 U.S.C. § 1983. MTM moved to dismiss all
claims under Federal Rule of Civil Procedure 12(b)(6). In response,
Thurman conceded all claims other than his § 1983 claim. So the single issue

1 After filing suit, Thurman was represented by two attorneys who filed a brief in
response to MTM’s motion to dismiss. Both attorneys moved to withdraw before the court
decided the motion. The court allowed the withdrawals.

2

App.2a

Case: 19-60596

Document: 00515674418

Page: 3

Date Filed: 12/15/2020

No. 19-60596

for decision was whether MTM deprived Thurman of a federal right
cognizable under § 1983.
Section 1983 only applies to “ state actors. ” But MTM did not dispute
Thurman’s assertion that it is a “state entity” that is jointly funded by the
state and federal governments. So the district court assumed that MTM was
acting under color of state law. The district court nevertheless held that there
is no federal right to non-emergency medical transportation enforceable in a
§ 1983 action, and therefore granted MTM’s motion to dismiss.

: I'­

Again proceeding pro se, Thurman appealed and attempted to file a
brief with this court multiple times. We initially dismissed Thurman’s appeal
for want of prosecution. However, on further review, this court reopened the
appeal and appointed pro bono counsel. We specifically ordered that the
parties file supplemental briefs “addressing whether an administrative
regulation may establish a federal right enforceable under 42 U.S.C. § 1983.”
ll.
We review a district court’s dismissal under Federal Rule of Civil
Procedure 12(b)(6) de novo. Hosein v. Gonzales, 452 F.3d 401, 403 (5th Cir.
2006). When a court reviews a motion to dismiss for failure to state a claim
under Rule 12(b)(6), it accepts “all well-pleaded facts as true, viewing them
in the light most favorable to the plaintiff. ” Jones v. Greninger, 188 F.3d 322,
324 (5th Cir. 1999). As the Supreme Court has held, however, “the tenet
that a court must accept as true all of the allegations contained in a complaint
is inapplicable to legal conclusions.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (citing BellAtl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)). And a
complaint may be dismissed if it clearly lacks merit—for example, where
there is “an absence of law to support a claim of the sort made.” Associated
Builders, Inc. v. Ala. Power Co., 505 F.2d 97, 99 (5th Cir. 1974) (quotations

3

App.3a

Case: 19-60596

Document: 00515674418

Page: 4

Date Filed: 12/15/2020

No. 19-60596

omitted) (quoting De Loach v. Crowley % Inc., 128 F.2d 378, 380 (5th Cir.
1942)).

in.
“Section 1983 liability results when a ‘person’ acting ‘under color of’
state law, deprives another of rights ‘secured by the Constitution’ or federal
law.” Doe v. United States, 831 F.3d 309, 314 (5th Cir. 2016) (quoting
42 U.S.C. § 1983). So simply stating a violation of federal law is not enough.
See, e.g., Cuvillier v. Taylor, 503 F.3d 397, 402 (5th Cir. 2007). Under the
plain text of § 1983, a plaintiff may bring an action only for a violation of a
“right” afforded to that person under federal law. See, e.g., Gonzaga, 536
U.S. at 283. Moreover, federal law “must provide ‘an unambiguously
conferred right’ with an ‘unmistakable focus on the benefitted class.’”
Legacy Cmty. Health Servs.j Inc. v. Smith, 881 F.3d 358, 371 (5th Cir. 2018)
(emphasis omitted) (quoting Gonzaga, 536 U.S. at 283-84).
A.
The first question Thurman raises in this appeal is whether the
Medicaid transportation regulation, 42 C.F.R. § 431.53, creates an individual
federal right that can be enforced through a § 1983 action. To answer that
question, we must decide whether any agency regulation can ever
independently create individual rights enforceable through § 1983.
We have not answered this question before. See Texas RioGrande
LegalAid, Inc. v. Range, 594 F. App’x 813,815 n.4 (5th Cir. 2014) (“Although
there is no dispute that federal statutes may create private rights that are
enforceable under § 1983, there is an interesting and difficult question that
has divided courts as to whether agency regulations may do the same.”)
(collecting cases); Gracia v. BrownsvilleHous., 105 F.3d 1053,1057 (5th Cir.
1997) (“ [I]t is not clear that regulations can be considered ‘laws’ for purposes
of creating a right actionable under section 1983.”) (citing Wright v. Roanoke

4

App.4a

Case: 19-60596

Document: 00515674418

Page: 5

Date Filed: 12/15/2020

No. 19-60596

Redev. & Hous. Auth., 479 U.S. 418, 437-39 (1987) (O’Connor, J.,
dissenting)).
Nor has the Supreme Court. But the Supreme Court has provided
important guidance that, like other circuits, we find dispositive of this
question.
In Sandoval, the Court held that regulations cannot create causes of
action enforceable in federal court. 532 U.S. at 293. “Language in a
regulation may invoke a private right of action that Congress through
statutory text created, but it may not create a right that Congress has not.”
Id. at 291. “Agencies may play the sorcerer’s apprentice but not the sorcerer
himself.” Id.
The following year, the Court held that statutory violations may be
enforced under § 1983—but only if it is clear that Congress actually intended
to create an individually enforceable right. See Gonzaga, 536 U.S. at 283. The
Court explained that “whether a statutory violation may be enforced through
§ 1983 is a different inquiry than that involved in determining whether a
private right of action can be implied from a particular statute. ” Id. (cleaned
up). “But the inquiries overlap in one meaningful respect—in either case we
must first determine whether Congress intended to create a federal right.” Id.
For “it is rights, not the broader or vaguer ‘benefits’ or ‘interests,’ that may
be enforced under the authority of that section.” Id. Moreover, Gonzaga
imposes a rigorous standard to ensure that entities are on notice that they
could be held liable under § 1983 for violations of the asserted right.
“[No]thing short of an unambiguously conferred right” is sufficient “to
support a cause of action brought under § 1983.” Id.
It follows from Sandoval and Gonzaga that agency regulations cannot
independently confer federal rights enforceable under § 1983 for one simple
reason: Those cases make clear that it is Congress, and not an agency of the

5

App.5a

Case: 19-60596

Document: 00515674418

Page: 6

Date Filed: 12/15/2020

No. 19-60596

Executive Branch, that creates federal rights. See, e.g., Sandoval, 532 U.S. at
291 (“Language in a regulation... may not create a right that Congress has
not.”); Gonzaga, 536 U.S. at 283 (“[No]thing short of an unambiguously
conferred right [will] support a cause of action brought under
§ 1983.... [W]e must first determine whether Congress intended to create a
federal right.”).
The Third, Fourth, Sixth, Ninth, and Eleventh Circuits have all
reached the same conclusion. See S. Camden Citizens in Action v. New Jersey
Dep3t ofEnvtl. Prot., 274 F.3d 771, 788 (3rd Cir. 2001); Smith v. Kirk, 821
F.2d 980, 984 (4th Cir. 1987); Caswell v. City ofDetroit Hous. Common, 418
,5 V V

F.3d 615,618,620 (6th Cir. 2005); Save Our Valley v. Sound Transit, 335 F.3d
932,939 (9th Cir. 2003)\ Harrisv. James, 127 F.3d 993,1008 (11th Cir. 1997).
Those circuits agree that “the Supreme Court’s § 1983 jurisprudence is
founded on the principle that Congress creates rights by statute. ” Save Our
Valley, 335 F.3d at 936 (citing 5. Camden Citizens in Action, 274 F.3d at 790;
Harris, 127 F.3d at 1008-09). For it is “Congress, rather than the executive,
[that] is the lawmaker in our democracy. ” Save Our Valley, 335 F.3d at 939.2
Thurman asks us to ignore those circuit precedents, and instead
follow an earlier decision of the Sixth Circuit, which held that agency

2 The D.C. Circuit has reached the opposite conclusion. But it did so under narrow
circumstances not presented here. In that, case, Congress “explicitly directed” the
Department of Housing and Urban Development to issue certain regulations to ensure
compliance with federal statutes. Samuels v. District of Columbia, 770 F.2d 184,199 (D.C.
Cir. 1985). As the court concluded, u[a]t least where Congress directs regulatory action, we
believe that the substantive federal regulations issued under Congress’ mandate constitute
‘laws’ within the meaning of section 1983.” Id. (emphasis added). Far from a broad
pronouncement that regulations can independently confer federal rights, then, Samuels at
most stands for the proposition that regulations can confer rights when Congress explicitly
directs regulatoiy action. Id. at 201. And in any event, Samuels was issued before the
Supreme Court’s decisions in Sandoval and Gonzaga.

6

App.6a

Case: 19-60596

Document: 00515674418

Page: 7

Date Filed: 12/15/2020

No. 19-60596

regulations can create individual federal rights. In Boatman v. Hammons, 164
F.3d 286 (6th Cir. 1998), the court held that, “because federal regulations
have the force of law, they must be characterized as ‘law’ under § 1983.” Id.
at 289. But there is a missing step in that logic. Even if a regulation has the
force of law, it is a separate question whether that law is an enforceable right
under § 1983. And we know from Gonzaga that the answer is no—not unless
Congress has created such an enforceable right by statute. 536 U.S. at 285.
So Boatman does not answer the question at issue here. What’s more, the
Sixth Circuit has expressly disavowed the authority on which Boatman relied,
Loschiavo v. City ofDearborn, 33 F.3d 548 (6th Cir. 1994). See Johnson v. City
ofDetroit, 446 F.3d 614, 629 (6th Cir. 2009) (stating that after Gonzaga and
. Sandoval, “the rule expressed in Loschiavo, that a federal regulation alone
may create a right enforceable through § 1983, is no longer viable”); see also
Caswell, 418 F.3d at 618, 620.
Accordingly, we join the Third, Fourth, Sixth, Ninth, and Eleventh
Circuits and hold that Thurman cannot sue MTM under § 1983 based solely
on the non-emergency medical transportation regulation.
B.
Alternatively, Thurman asks us to construe three statutory provisions
in conjunction with the Medicaid non-emergency medical transportation
regulation to establish a federal right enforceable under § 1983. Specifically,
he relies on 42 U.S.C. § 1396a(a)(8), (19), and (70), which read as follows:
A state plan for medical assistance must—
(8) provide that all individuals wishing to make
application for medical assistance under the plan shall have
opportunity to do so, and that such assistance shall be
furnished with reasonable promptness to all eligible
individuals;...

7

App.7a

Case: 19-60596

Document: 00515674418

Page: 8

Date Filed: 12/15/2020

No, 19-60596

(19) provide such safeguards as may be necessary to
assure that eligibility for care and services under the plan will
be determined, and such care and services will be provided, in
a manner consistent with simplicity of administration and the
best interests of the recipients;...
(70) at the option of the State and notwithstanding
paragraphs (1), (10) (B), and (23), provide for the establishment
of a non-emergency medical transportation brokerage program
in order to more cost-effectively provide transportation for
individuals eligible for medical assistance under the State plan
who need access to medical care or services and have no other
means of transportation....
None of these provisions even come close to establishing the
“unambiguously conferred right” necessary “to support a cause of action
brought under § 1983.” Gonzaga, 536 U.S. at 283. See also Blessing v.
Freestone, 520 U.S. 329, 340-41 (1997) (“[T]he plaintiff must demonstrate
that the right assertedly protected by the statute is not so ‘vague and
amorphous’ that its enforcement would strain judicial competence,” and
that “the statute must unambiguously impose a binding obligation on the
States.”) (citation omitted).
Among the statutory provisions cited by Thurman, only paragraph 70
even refers to transportation. But far from establishing an individual right to
non-emergency medical transportation, it expressly gives states the option to
establish a transportation brokerage program.
•v

i

Paragraphs 8 and 19 do not mention transportation at all. And there
is no basis for reading a transportation right into those paragraphs. At most,
those provisions establish only a right to receive certain health care services
from the Medicaid program. See, e.g., Romano v. Greenstein, 721 F.3d 373,379
(5th Cir. 2013) (holding that paragraph 8 creates a right to “medical
assistance” with “reasonable promptness”).

8

App.8a

Moreover, the Eleventh

Case: 19-60596

Document: 00515674418

Page: 9

Date Filed: 12/15/2020

No. 19-60596

Circuit has held that paragraph 19 “imposes only a generalized duty on the
States—in other words, the provision is insufficiently specific to confer any
particular right upon the plaintiffs.” Harris, 127 F.3d at 1010.
Accordingly, we agree with the Eleventh Circuit that paragraphs 8,19,
and 70, whether on their own or in combination with 42 C.F.R. § 431.53,
cannot “support a conclusion that Congress has unambiguously conferred
upon Medicaid recipients a federal right to transportation enforceable under
§ 1983.” Id. at 1012.
* * *

For the foregoing reasons, we affirm.

9

App.9a

Case 3:18-cv-00282-DPJ-FKB Document 38 Filed 06/18/19 Page 1 of 6

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
PLAINTIFF

LEONARD THURMAN
V.

CIVIL ACTION NO. 3:18-CV-282-DPJ-FKB

MISSISSIPPI TRANSPORTATION MANAGEMENT

DEFENDANT

ORDER
Leonard Thurman filed this suit when Medical Transportation Management, Inc.
(“MTM”) (erroneously referred to in the Complaint as Mississippi Transportation Management)
failed to pick him up for a doctor’s appointment. MTM moved to dismiss all claims pursuant to
Federal Rule of Civil Procedure 12(b)(6). For the reasons explained, the motion to dismiss [11]
is granted.
I.

Facts and Procedural History
MTM provides non-emergency medical transportation for Medicaid recipients. Thurman

says he requested a pickup for a doctor’s appointment to treat complications stemming from a
tooth extraction performed two weeks earlier. Compl. [1] at 5-6. But MTM never showed up.
Id. at 5. Thurman filed a grievance and was told the trip in question was never confirmed
because he did “not provide all trip information” during the scheduling call, placed the MTM
representative on hold, and did not come back to the line. Letter [1-1] at 9. As relief, he seeks
$1 million. Compl. [1] at 6.
Thurman, initially proceeding pro jse, sued MTM and invoked 42 U.S.C. § 1983; Bivens
v. Six Unknown Named Agents ofFederal Bureau of Narcotics, 403 U.S. 388 (1971); and the
Americans with Disabilities Act (“ADA”). Id. at 4; Civil Cover Sheet [1-2]. MTM moved to
dismiss all claims, and in response Thurman conceded his ADA and Bivens claims. PL’s Resp.

App.lOa

Case 3:18-cv-00282-DPJ-FKB Document 38 Filed 06/18/19 Page 2 of 6

[29] at 1, 3. The parties now focus on a single issue under § 1983—whether MTM deprived
Thurman of a cognizable federal fight. Def.’s Mem. [12] at 5-6. The motion is fully briefed,
and the Court has jurisdiction. i
II.

Standard
In considering a motion under Rule 12(b)(6), the “court accepts ‘all well-pleaded facts as

true, viewing them in the light most favorable to the plaintiff.’” Martin K. Eby Constr. Co. v.
Dali. Area Rapid Transit, 369 F.3d 464, 467 (5th Cir. 2004) (quoting Jones v. Greninger, 188
F.3d 322, 324 (5th Cir. 1999) (per curiam)). But “the tenet that a court must accept as true all of
the allegations contained in a complaint is inapplicable to legal conclusions. Threadbare recitals
of the elements of a cause of action, supported by mere conclusory statements, do not suffice.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007)). To overcome a Rule 12(b)(6) motion, a plaintiff must plead “enough facts to state a
claim to relief that is plausible on its face.” Twombly, 550 U.S. at 570. “Factual allegations
must be enough to raise a right to relief above the speculative level, on the assumption that all
the allegations in the complaint are true (even if doubtful in fact).” Id. at 555 (citations and
footnote omitted).
III.

Analysis
“Section 1983 liability results when a ‘person’ acting ‘under color of state law, deprives

another of rights ‘seemed by the Constitution’ or federal law.” Doe v. United States, 831 F.3d

1 Thurman initially filed a pro se response [18] but later obtained counsel, who filed a response
[29] on his behalf.

2

. App.11a

Case 3:18-cv-00282-DPJ-FKB Document 38 Filed 06/18/19 Page 3 of 6

309, 314 (5th Cir. 2016) (quoting 42 U.S.C. § 1983). Here, the parties dispute whether MTM
deprived Thurman of a federal right.2
A “[violation of a federal law is insufficient for redress through section 1983; a plaintiff
must assert [a] violation of a federal right." Cuvillier v. Taylor, 503 F.3d 397, 402-03 (5th Cir.
2007) (emphasis in original). Three factors determine whether a statutory provision gives rise to
a federal right. Id. (citing Blessing v. Freestone, 520 U.S. 329 (1997)). “First, Congress must
have intended that the provision in question benefit the plaintiff.” Blessing, 520 U.S. at 340.
“Second, the plaintiff must demonstrate that the right assertedly protected by the statute is not so
‘vague and amorphous’ that its enforcement would strain judicial competence.” Id. at 340-41.
And “[tjhird, the statute must unambiguously impose a binding obligation on the States.” Id. at
341.
Thurman argues that the state of Mississippi is required to afford non-emergency medical
transportation to its Medicaid recipients pursuant to 42 C.F.R. § 431.53, which provides:
A State plan must(a) Specify that the Medicaid agency will ensure necessary transportation for
beneficiaries to and from providers; and
(b) Describe the methods that the agency will use to meet this requirement.
42 C.F.R. § 431.53 (2012). Fie applies the three-factor test, reasoning that as a Medicaid
recipient, he is entitled to state-provided transportation. Pl.’s Resp. [29] at 2-3 (citing § 431.53).
And finally, he insists MTM had an obligation to deliver this transportation. Id. at 3.

2 Thurman states MTM is a “state entity” that is jointly funded by the state and federal
governments. Pl.’s Resp. [29] at 1. MTM focuses its Reply on the absence of an enforceable
federal right, so the Court assumes for purposes of this motion that MTM was acting under color
of state law. See Def.’s Reply [31] at 2-3.
3

App.12a

Case 3:18-cv-00282-DPJ-FKB • Document 38 Filed 06/18/19 Page 4 of 6

But § 431.53 is a federal regulation, not a federal statute. For that reason, the Eleventh
Circuit Court of Appeals has held that it is not enforceable in a § 1983 action. See Harris v.
James, 127 F.3d 993 (11th Cir. 1997); see Def.’s Mem. [12] at 6; Def.’s Reply [31] at 2. In
Harris, the plaintiffs filed suit under § 1983 claiming that Alabama’s Medicaid plan was “not in
compliance with a federal regulation requiring State Medicaid plans to ensure necessary
transportation for recipients to and from providers.” 127 F.3d at 995. The district court granted
summary judgment for the plaintiffs, and the defendants appealed. Id. at 996. Conceding that
the state violated § 431.53, the defendants nevertheless argued that Medicaid recipients do not
have a federal right to transportation that can be enforced through § 1983. Id. The Eleventh
Circuit agreed, concluding that “the transportation regulation does not define the content of any
specific right conferred upon the plaintiffs by Congress. In our view, the nexus between the
regulation and Congressional intent to create federal rights is simply too tenuous to create an
enforceable right to transportation.” Id. at 1009-10.
Although MTM relied on Harris in its initial brief, Thurman ignored it in his response,
basing his argument entirely on Doe 1-13 ex rel. Doe, Sr. 1-13 v. Chiles, 136 F.3d 709, 711
(11th Cir. 1998). See Pl.’s Mem. [29] at 2-3. But that Eleventh Circuit case addressed whether
an actual Medicaid Act provision, 42 U.S.C. § 1396a(a)(8), created a federal right under § 1983.
Id. Significantly, the Doe court distinguished Harris, noting that Harris considered whether
§ 431.53—again, a federal regulation rather than a federal statute—created a federal right to
transportation. 136 F.3d at 714. The Doe court explained,
Preliminarily, we note that this court’s recent decision in Harris v. James did not
address the issue at bar. In Harris, the court decided the “narrow issue” of
“whether Medicaid recipients have a federal right to transportation which may be
enforced in an action under § 1983.” 127 F.3d at 996. The right to transportation
that the Harris plaintiffs sought to enforce appeared “explicitly not in the
Medicaid Act, but in a federal regulation,” 42 C.F.R. § 431.53. 127 F.3d at 1005.
4

App.13a

Case 3:18-cv-00282-DPJ-FKB Document 38 Filed 06/18/19 Page 5 of 6

Id. In short,Thurman’s only supporting authority does nofbolster his case.
While the parties limited their arguments to these two Eleventh Circuit cases, federal
courts are divided as to whether a federal regulation can create a federal right. Compare S.
Camden Citizens in Action v. N.J. Dep’t ofEnvtl. Prot., 274 F.3d 771, 788 (3d Cir. 2001)
(holding that “the EPA’s disparate impact regulations cannot create a federal right enforceable
through section 1983” (citing Harris, 127 F.3d at 1008)), and Kissimmee River Valley Sportsman
Ass’n v. City ofLakeland, 250 F.3d 1324 (11th Cir. 2001) (affirming dismissal of § 1983 action
based on federal regulation), with Boatman v. Hammons, 164 F.3d 286, 289 (6th Cir. 1998) (“We
are aware of the Eleventh Circuit’s recent decision in Harris v. James, 127 F.3d 993 (11th Cir.
1997), which held that the state-ensured transportation regulation (42 C.F.R. § 431.53) does not
define the content of any specific ‘statutory’ right conferred upon Medicaid recipients by
Congress, and thus, is not enforceable in a § 1983 action. This Circuit has held to the contrary
that because federal regulations have the force of law, they must be characterized as Taw’ under
§ 1983.”).
The Fifth Circuit has recognized this division but has not decided the question. Tex.
RioGrande Legal Aid, Inc: v. Range, 594 F. App’x 813, 816 n.4 (5th Cir. 2014) (“Although there
is no dispute that federal statutes may create private rights that are enforceable under § 1983,
there is an interesting and difficult question that has divided courts as to whether agency
regulations may do the same.” (citing Harris, 127 F.3d 993)).
Absent an opinion from the Fifth Circuit taking a side in this circuit split, this Court finds
Harris compelling under the present circumstances. “[T]o confer a private right that is
enforceable under § 1983, the federal law upon which the plaintiff relies must ‘unambiguously
confer’ the right claimed.” Id. at 816 (quoting Gonzaga Univ. v. Doe, 536 U.S. 273, 283 (2002)).
5

App.14a

Case 3:18-cv-00282-DPJ-FKB Document 38 Filed 06/18/19 Page 6 of 6

The Medicaid Act does not address transportation, and as the Eleventh Circuit concluded, “the
transportation regulation does not define the content of any specific right conferred upon the
plaintiffs by Congress.” Harris, 127 F.3d at 1009-10. MTM’s motion to dismiss is granted.
IV.

Conclusion
The Court has considered all arguments raised by the parties; those not addressed would

not have changed the outcome. For the reasons stated, Defendant’s motion to dismiss [11] is
granted. A separate judgment will be entered in accordance with Federal Rule of Civil Procedure
58.
In addition, Attorney Carlos Moore filed a motion to withdraw as counsel of record [34],
explaining that he does not have a contract of employment with Thurman. Mot. [34] at 1.
Moore was associated by Thurman’s prior counsel (Trinetta Fisher) as local counsel and to
sponsor her Pro Hac Vice admission. Id. Both Moore and Fisher indicated in their respective
motions to withdraw [33, 34] that Thurman has been unresponsive to their efforts to assist him
with his case. And since the filing of the motion to withdraw [34], Thurman, acting pro se, filed
documents to support his case. See Medical Records [35] (Sealed) (filed May 28, 2019).
Moore’s motion to withdraw [34] is granted; the Court presumes, based on the docket activity,
that Thurman wishes to represent himself. If he prefers to obtain new counsel or needs
additional time to pursue any post-judgment relief, he should file a motion explaining any
request.
SO ORDERED AND ADJUDGED this the 18th day of June, 2019.
s/ Daniel P. Jordan III
CHIEF UNITED STATES DISTRICT JUDGE

6

App.15a

Case 3:18-cv-00282-DPJ-FKB Document 39 Filed 06/18/19 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
PLAINTIFF

LEONARD THURMAN

CIVIL ACTION NO. 3:18-CV-282-DPJ-FKB

V.

MISSISSIPPI TRANSPORTATION MANAGEMENT

DEFENDANT

JUDGMENT
For the reasons stated in the Order entered this date, Defendant’s motion to dismiss [11]
is granted. This action is dismissed.
SO ORDERED AND ADJUDGED this the 18th day of June, 2019.
s/ Daniel P. Jordan III
CHIEF UNITED STATES DISTRICT JUDGE

. App.16a

Case: 19-60596

Document: 00515715643

Page: 1

Date Filed: 01/22/2021

9Unit£ti-^»t:ate£(-Court_ofSppeate
tor tlje JftftI) Circuit
No. 19-60596

Leonard Thurman,
Plaintiff—Appellant,
versus
Medical Transportation Management, Incorporated,
Defendant—Appellee.

Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:18-CV-282

ON PETITION FOR REHEARING EN BANC
(Opinion December 15, 2020,5 Cir.

F.3d

Before Clement, Ho, and Duncan, Circuit Judges.
Per Curiam:

't

( V ) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DEN IED. No member
of the panel nor judge in regular active service of the court having
requested that the court be polled on Rehearing En Banc (Fed. R.
App. P. and 5th Cir. R. 35), the Petition for Rehearing En Banc is
DENIED.

App. 17a

V

Case: 19-60596

( )

Document: 00515715643

Page: 2

Date Filed: 01/22/2021

Treating the Petition for Rehearing En Banc as a Petition for
Panel Rehearing, the Petition for Panel Rehearing is
DENIED. The court having been polled at the request of
one of the members of the court and a majority of the judges
who are in regular active service and not disqualified not
having voted in favor (Fed. R. App. P. and5™CiR. R.
35), the Petition for Rehearing En Banc is DENIED.

App. 18a

